No. 19-395

3m tbe
bupreme Court of tbe

6tateo
..

efoktjAekosini

CHRISTINA ALESSIO,
Petitioner,
V.

UNITED AIRLINES, INC.,
Respondent.

On a Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit
REPLY BRIEF OF PETITIONER

CHRISTINA ALESSIO
PETITIONER PRO SE
1970 N. CLEVELAND-MASSILLON ROAD
UNIT 589
BATH, OH 44210
(330) 338-7052

NOVEMBER 1, 2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

f

REC
NOV - 5
OFFICE OF THE CLERK
SUPREMECOUR U.S

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES

ii

REPLY BRIEF ON PETITION
FOR WRIT OF CERTIORARI

1

CONCLUSION

8

ii
TABLE OF AUTHORITIES
Page
STATUTES
49 U.S.C. § 5124

7

JUDICIAL RULES
Sup. Ct. R. 15.6

1

1

mfr

)

4

<

REPLY BRIEF ON
PETITION FOR WRIT OF CERTIORARI
With respect, and per Rule 15.6, Petitioner may
file a Reply Brief to call attention to new points
declared in the Respondent's Brief in Opposition.
Respectfully, Respondent's Brief in Opposition
was filed on October 24, 2019, with THE SUPREME
COURT, in response to the Petitioner's request to
grant a Writ of Certiorari.
With respect, Petitioner's Reply Brief filed on
November 1, 2019, is addressing new points declared
in the Respondent's Brief in Opposition, for insight,
clarity and understanding for a sincere, mindful judicial
review for granting the Petitioner a Writ of Certiorari.
The contents of Petitioner's Reply Brief calls attention to Respondent's Brief in Opposition's new points,
and is summarized by the "Facts of this Case" that
are 3 fold:
Respectfully,
To communicate a mindful focus on the ultimate
responsibility under THE UNITED STATES CONSTITUTION: To Protect the People.
Exposure of "Chemical Substance Products"
in the Aircraft Cabin is approved by the Respondent,
and needs answered as to whether or not this routine
practice is in compliance with the statutes.
Federal Question: Is the Respondentin compliance with
the statutes?

3. Oversight and Legislation by the 116th Congress: New Legislation needed with a fair, right and
just intention, "To Protect the People" with a knowing
and willful transparent Official Congressional "Certificate of Compliance", to the Cleaning and Air-Freshening
Products exposed, inside the Aircraft Cabin.
NEW POINTS:
"ARGUMENT / REASONS TO DENY PETITION',
by the Respondent:
I. "The Petition should be denied because there are
no "compelling reasons" for granting certiorari in this
case." (reference: page #6, of the Brief in Opposition)
Respectful
attention:

Petitioner's Reply Brief requesting

Respectful Compelling Reason #1
YOUR HONOR and with great respect, to be clear
and for the record it has been communicated to the
best of the Petitioner's ability and understanding,
that the Respondent knowingly and willfully approves
the use and exposure of "Chemical Substance Products"
in the Aircraft Cabin.
Respectful Compelling Reason #2
YOUR HONOR and with great respect, the
Petitioner's Job Responsibility, Duty and Obligation
is to ensure a Safe Environment in the Aircraft Cabin
and to communicate any safety concerns up the
Leadership chain until resolved.
Respectful Compelling Reason #3
YOUR HONOR and with great respect, Petitioner
has reached out for a Third party opinion: The Equal

3

Employment Opportunity Commission (EEOC), who
provided a NOTICE OF RIGHTS letter dated April 18,
2017 (Petitioner's App., 94a-95a), communicating an
inability to certify that the Respondent is in compliance
with the statutes. Respectfully, is the Respondent in
compliance with the statutes knowingly and willfully
using and exposing "Chemical Substance Products"
in the Aircraft Cabin?
Respectful Compelling Reason #4
YOUR HONOR and with great respect, how is
routine use and exposure of "Chemical Air-Fresheners"
in the Aircraft Cabin for "All onboard to Inhale", with
protective measures and ability to follow the First
Aid Procedures "not an option", in compliance with
United States Federal Law?
Respectfully, with this type of routine use and
exposure of "Chemical Substance Products" chosen for
inside the Aircraft Cabin, is this a blatant physical
assault on All Air-Traveler's Human Health?
Respectful Compelling Reason #5
YOUR HONOR and with great respect, how is
routine use and exposure of "Chemical Air-Fresheners"
in the Aircraft Cabin with Trade Secret Ingredients
(Chemical Ingredients purposely withheld), in compliance with United States Federal Law?
Respectfully, with this type of routine use and
exposure of "Chemical Substance Products" chosen for
inside the Aircraft Cabin, is this a pure violation of
All Air-Traveler's Civil and Human Rights?

4

Respectful Compelling Reason #6
YOUR HONOR and with great respect, do you
believe transparency is paramount for All Commercial
Air-Traveler's Right's: "Right to Know" and "Need to
Know", by providing Commercial Air Travelers with
a list of the Aircraft Cabin Products, up to and including
the Cleaning and Air-Freshening Products approved
by the Government with a "Certificate of Compliance",
disclosing all ingredients including the Chemical
Fragrances, for the Air-Traveler's Public Safety and
Health?
Respectfully, is this type of routine use and exposure of "Chemical Substance Products" chosen for
inside the Aircraft Cabin, contributing and resulting
in acute airsickness with unhealthy side effects, in
addition to chronic illnesses and disease, up to and
including cancer?
Respectful Compelling Reason #7
YOUR HONOR and with great respect, do you
believe "Chemical Substance Products", should be
refrained from being used inside the Aircraft Cabin
(example: No Smoking), to avoid chemical inhalation
exposure, thereby upholding THE UNITED STATES
CONSTITUTION: To protect the People?
Respectful Compelling Reason #8
YOUR HONOR and with great respect,
Why, "Chemical" Air-Fresheners in the Aircraft
Cabin?
Respectfully, with this type of routine use and
exposure of "Chemical Substance Products" chosen for
inside the Aircraft Cabin, should there be a Prevention

5

Plan implemented requiring possible Blood Tests,
verifying the Respondents amount and levels of
exposure to the "Chemical Substance Products", that
enter the Global Air-Traveler's body through inhalation
in the Aircraft Cabin, contributing to unhealthiness?
Respectful Compelling Reason #9
YOUR HONOR and with great respect, the
"Stricken Evidence" is sincerely relevant "Facts to this
Case", applying the correct law. With respect, Respondent addresses the Petitioner's Respectful Compelling
Reason #9, "Stricken Evidence" as "supplements" for
the record (reference: Respondent's Brief in Opposition:
page #3, paragraph #2). With respect, may the Respondent address the "Facts of this Case" as "Stricken
Evidence" and not as "supplements".
Respectful Compelling Reason #10
YOUR HONOR and with great respect, Respondent's Brief in Opposition (reference: page #4, paragraph #2), please know that the Petitioner is simply
requesting verification and certification that the
Federal Rule of Law is being followed in the interest
of the Public's Safety and Health. With respect, New
Legislation with a transparent "Certificate of Compliance" from the Legislative Branch of our great
Government, making Public the Cleaning and AirFreshening Products used inside the Aircraft Cabin,
would be considered the least support in Honor of
THE UNITED STATES CONSTITUTION: To Protect
The People.
Respectful Compelling Reason #11
YOUR HONOR and with great respect, Respondent's Brief in Opposition, "SUMMARY OF THE

6

ARGUMENT" (reference: page #5, paragraph #3),
please know that the Petitioner believes there is a true
conflict of law when the Respondent knowingly and
willfully approves the use of "Chemical Substance
Products" inside the Aircraft Cabin. Respectfully, the
Respondent has been unable to provide a "Certificate
of Compliance" from our Legislative Branch, 116th
Congress. And when inviting Corporate Safety or
Inflight Management specifically, to please come fly
with me, Petitioner has also with great respect, been
unsuccessful with the invitation and is unclear why.
Respectfully, Safety is Top Priority.
Respectful Compelling Reason #12
YOUR HONOR and with great respect Respondent's Brief in Opposition (reference: page #9, paragraph #1), it states, "Here, there is no indication that
Congress intended to create a private cause of action
under the HMTA, and Alessio's Petition fails to present
evidence of congressional intent to the contrary."

Petitioner's response: Respectfully, if Congress
did not intend to create a private cause of action under
HMTA for the Global Air-Traveling Public, in coordination with no "Certificate of Compliance" to "Chemical
Substance Products" used and exposed inside the
Aircraft Cabin approved by the Respondent with
ingredients not applicable, is our Legislative Branch
respectfully and truly upholding their oath of office,
to THE UNITED STATES CONSTITUTION: To
Protect The People?
Respectfully requesting, non-toxic, chemical-free,
100% safe and 100% transparent, Aircraft Cabin
Cleaning and Air Freshening Products for the Safety
and Health of the Global Air Traveling Public.

7

With the greatest respect, may THE SUPREME
COURT, in the interest of the Public's Air-Travel Safety
and Health, grant the Petitioner's Writ of Certiorari.

Petitioner's RELEVANT STATUTES:
THE UNITED STATES CONSTITUTION: To
Protect the People. Federal Law 49 U.S.C. § 5124.
Respectfully, any further STATUTE or CASE
referenced and communicated in the Respondent's
BRIEF IN OPPOSITION / TABLE OF AUTHORITIES
(reference: page #iv), Petitioner is requesting, may
the Court rule the references be dismissed without
prejudice, unless 2 Factors apply giving merit to the
reference for a fair, right, true and just comparison.
Factor 1. Federal Law. The Case must not be State
or Local.
Factor 2. Location of Environment. Location is
INFLIGHT.
Respectfully, Petitioner believes any true comparison would have to be a Case Location, not on the
"Ground" rather in the "Air" traveling, hence the
Federal Law: To Protect the People.

8

CONCLUSION
With great respect, and for the foregoing reasons
submitted in good conscience and good faith, may
THE SUPREME COURT, find merit in granting the
Petitioner a Writ of Certiorari.

Respectfully submitted,
CHRISTINA ALESSIO
PETITIONER PRO SE
1970 N. CLEVELAND-MASSILLON ROAD
UNIT 589
BATH, OH 44210
(330) 338-7052
NOVEMBER 1, 2019

BLANK PAGE

BLANK PAGE

SUPREME COURT
PRESS

